                Accounting System Deficiency Found During
                           Incurred Cost Audit

                                 August 2004

                     Reference Number: 2004-1C-137




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                             August 9, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Accounting System Deficiency Found During Incurred Cost Audit
                              (Audit #20041C0237)



       The Defense Contract Audit Agency (DCAA) audited the contractor’s Civil Division
       incurred costs. The audit included determining whether the contractor consistently
       complied with established accounting system internal controls for recording and
       reporting contract cost data for Federal Government contracts. The DCAA indicated
       that consistent application of sound accounting procedures should reduce errors in
       contract cost data, reduce the amount of manual processing of invoices for billing,
       reduce the errors in computing indirect rates, and facilitate the audit and evaluation of
       contract costs.
       The DCAA evaluation was limited to certain contractor accounting practices used in
       recording contract cost data. The DCAA did not perform sufficient audit procedures to
       constitute an examination of all applicable accounting system internal controls in
       accordance with generally accepted government auditing standards.
       The DCAA noted that certain contractor accounting practices used for recording and
       reporting contract cost data in connection with the contractor’s Civil Division Fiscal
       Year (FY) 2001 incurred cost audit require corrective action to improve the reliability of
       its claimed contract costs. Specifically, the DCAA indicated the contractor misclassifies
       contract types in its Costpoint accounting system. The DCAA examined 47 projects and
       found that 45 were misclassified in Costpoint. The most prevalent misclassification
       involved firm fixed price (FFP) contracts entered in Costpoint as time and materials
       (T&M) contracts. In a sample of 11 T&M project numbers for the Internal Revenue
       Service, 8 were misclassified as FFP, and 1 was misclassified as cost-type.
                                            2

Based on these samples and the confirmation of the results with the contractor’s
compliance personnel, the DCAA believes many projects have been incorrectly entered
into Costpoint. The DCAA noted that this deficiency could adversely affect the reliability
and completeness of the contractor’s certified incurred cost submissions. Accordingly,
the DCAA cannot report accurate contract costs by contract type for FY 2000 and
forward.
The DCAA recommended the contractor correct the contract information recorded in
Costpoint, establish procedures to ensure all contract information is entered into
Costpoint, and ensure the certified incurred cost submissions are accurate and
complete. According to the DCAA, the contractor agreed to the recommendations and
indicated it has corrected the contract types in Costpoint for FYs 2002 through 2003.
The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
